IMPLEMENTATION REVIEW OF CONTROLS
     OVER FECA COMPENSATION
   AND MEDICAL BENEFITS EXPENSE
  REPORT NUMBER A060152/S/F/S07004
         DATED JUNE 5, 2007
    ASSIGNMENT NUMBER A100098

           March 31, 2010
Date:          March 31, 2010

Reply to       Deputy Assistant Inspector General for
Attn of:       Finance and Administrative Audits (JA-F)

Subject:       Implementation Review of Controls over FECA Compensation and
               Medical Benefits Expense Report Number A060152/S/F/S07004
               dated June 5, 2007
               Assignment Number A100098

To:            Gail T. Lovelace
               Chief Human Capital Officer (C)

The Finance and Administrative Audit Office (JA-F) conducted an implementation
review of management’s actions taken in response to the three
recommendations included in the subject audit report. Specifically the Office of
the Chief Human Capital Officer (CHCO) developed a formal action plan to
address the recommendations. The plan identified specific steps requiring: (1)
the Human Capital Policy and Program Management Division 1 (CHP) and
Consolidated Processing Center (CPC) to implement a directive for processing
injury compensation claims and (2) the Consolidated Processing Center (CPC) to
obtain missing documentation related to the Federal Employees Compensation
Act (FECA) claims. Appendix A contains a copy of the management action plan
provided by your office.

Background

During our initial review of the controls over FECA compensation and medical
benefits expenses paid by GSA, we noted that the CHP did not have formal
policies and procedures in place for GSA’s FECA program. We also noted that
many of the claim files on record were incomplete and did not contain the
necessary documentation or medical evidence to ensure that a continuing
disability exists. A management action plan dated December 7, 2007 included
the following steps to address the results of our audit:

      (1) Develop an Injury Compensation Directive,
      (2) Develop and implement internal claim file Standard Operating Procedures,
          and
      (3) Attempt to obtain critical missing documents.




1
 The Human Capital Policy and Program Management Division (CHP) name was changed to the
Staffing and Compensation Policy Division (CHS). The change was effective on January 9, 2008.
Objective, Scope, and Methodology

The objective of this implementation review was to determine if the corrective
actions in the action plan have been fully implemented.

To accomplish this objective, we:
- Reviewed the Controls over FECA Compensation and Medical Benefits
   Expense Report Number A060152/S/F/S07004 dated June 5, 2007 and all
   supporting audit documentation.
- Reviewed the action plan dated December 7, 2007 and any related
   documentation submitted in response to the original report.
- Judgmentally selected a sample of five claims that were included in our
   original audit sample to see if the deficiencies noted had been corrected.
- Judgmentally selected a sample of eight new claim files that originated
   subsequent to our audit period to determine if those claim files contained all
   of the pertinent information.
- Held discussions with CPC human resources personnel.

We conducted this review between January 2010 and March 2010.


                            RESULTS OF REVIEW

The results of our implementation review indicate that the CHP and CPC have
taken appropriate corrective actions. These actions should improve internal
controls and enhance efforts to obtain critical documentation for the FECA claim
files.

                                CONCLUSION

Based on our analyses and testing, we determined that the CPC has taken
appropriate corrective actions in response to the original report.


                            INTERNAL CONTROLS

The scope of this review was limited to assess whether appropriate corrective
action as stated in the action plan dated December 7, 2007 was taken by
management. Thus, our assessment and evaluation of internal controls was
limited to the issues identified in the original report and were discussed in the
Results of Review section.




                                       2
If you have any questions regarding this review, please contact Donna Peterson-
Jones or me at (202) 501-0006.




Jeffrey C. Womack
Deputy Assistant Inspector General for
Finance and Administrative Audits (JA-F)




                                      3
      Implementation Review of Controls over FECA Compensation
                     and Medical Benefits Expense
        Report Number A060152/S/F/S07004, dated June 5, 2007
                     Assignment Number A100098


Appendix A: Action Plan for the Controls over FECA Compensation and Medical
                               Benefits Expense,
      Report Number A060152/S/F/S07004, Dated December 7, 2007




                                   A-1
A-2
A-3
A-4
A-5
A-6
A-7
A-8
A-9
A-10
A-11
A-12
A-13
A-14
A-15
A-16
A-17
A-18
A-19
A-20
A-21
A-22
       Implementation Review of Controls over FECA Compensation
                     and Medical Benefits Expense
         Report Number A060152/S/F/S07004, dated June 5, 2007
                      Assignment Number A100098

                                   Appendix B



Report Distribution                                            Electronic Copies

Chief Human Capital Officer (C)                                        1

Director, Internal Control & Audit Division (BEI)                      1

Director, Audit Planning, Policy, and Operations Staff (JAO)           1

Assistant Inspector General for Auditing (JA)                          1

Assistant Inspector General for Investigations (JI)                    1




                                        A-23
                                         B-1
